I

    U.S. Department of the Interior
    Office of Inspector General




                AUDIT REPORT


       FOLLOWUP OF RECOMMENDATIONS
    CONCERNING FOOD SERVICES OPERATIONS,
         DEPARTMENT OF EDUCATION,
            GOVERNMENT OF GUAM

                  REPORT NO. 97-I-617
                     MARCH 1997
             United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                Washington, D.C. 20240




MEMORANDUM

TO:

FROM:
                          Inspector General

SUBJECT SUMMARY: Final Audit Report - “Followup of Recommendations Concerning
                 Food Services Operations, Department of Education, Government
                 of Guam” (97-I-617)

Attached for your information is a copy of the subject final audit report. The objective of
the followup review was to determine whether the Government of Guam’s Department of
Education had satisfactorily implemented the recommendations made in our 1988 report and
whether any new recommendations were warranted.

We concluded that the Department of Education had implemented all eight of the
recommendations made in our prior audit report. However, during our current review, we
found that the Department had not retained student applications for the 3-year period
mandated by program regulations and had not prepared severe need analyses to determine
school eligibility for higher reimbursement rates. This occurred because the Department had
not developed adequate written procedures to address these deficiencies. As a result, the
Department incurred questioned costs of $351,231. We made five new recommendations
to the Department in the report.

Based on the response to the draft report from the Department of Education, we considered
two of the report’s five recommendations resolved and implemented. However, the
Department was asked to reconsider the recommendation relating to amending the Food
Services Guide to include a requirement on maintaining program records and to provide
additional detailed information for the recommendations on employee qualifications and
severe need analyses.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
Mr. Robert J. Williams, Assistant Inspector General for Audits, at (202) 208-4252.



Attachment
                                                                       N-IN-GUA-011-96


            United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                Washington, D.C. 20240




                                AUDIT REPORT

Ms. Gloria Nelson
Chairperson, Territorial Board of Education
Department of Education
P.O. Box DE
Agana, Guam 96910

Subject: Audit Report on Followup of Recommendations Concerning Food Services
         Operations, Department of Education, Government of Guam (No. 97-I-617)

Dear Ms. Nelson:

This report presents the results of our followup review of recommendations contained in our
July 1988 audit report “Food Services Operations, Department of Education, Government
of Guam” (No. 88-92). The objective of the followup review was to determine whether the
Government of Guam’s Department of Education had satisfactorily implemented the
recommendations in our 1988 report and whether any new recommendations were warranted.

BACKGROUND

The National School Lunch Act of 1946 and the Child Nutrition Act of 1966 authorized the
Food and Nutrition Service (now called the Food and Consumer Service), U.S. Department
of Agriculture, to enter into agreements with state agencies for the purpose of providing
funds to ensure that all children attending school receive nutritious meals. On Guam, the
Department of Education serves as the state agency, and within the Department, the Food
Services Section is responsible for administering and monitoring the meal programs.

For school years 1992-1993, 1993-1994, and 1994-1995, the Department received $9.2
million of Federal funds. During this period, 12 million meals were served to children at 42
public and private schools, including those under the Head Start Program, and at the
Department of Youth Affairs.
SCOPE OF AUDIT

To accomplish our audit objective, we reviewed documents and records pertaining to the
Department’s food services operations for school years 1992-1993, 1993-1994, and
1994-1995.     In addition, we interviewed Departmental personnel responsible for
administering the National School Lunch Program and the School Breakfast Program.

This followup review was conducted at the Department’s Food Services Section; at 24
schools; and at the Head Start Program office, which is an independent office “within the
Department of Education. Our review was made, as applicable, in accordance with the
“Government Auditing Standards,” issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures that were
considered necessary under the circumstances. Because of the limited scope and objective
of our review, internal controls were reviewed only to the extent that they related to
corrective actions taken on the prior recommendations.

PRIOR AUDIT COVERAGE

During the past 5 years, no audit reports have been issued by the General Accounting Office
or the Office of Inspector General that evaluated the operations of the Food Services Section
on Guam. However, our July 1988 audit report concluded that the Department: (1) prepared
inaccurate claims for reimbursement from the former Food and Nutrition Service, U.S.
Department of Agriculture; (2) did not charge teachers, volunteer parents, and ineligible
students for meals; and (3) performed inadequate school oversight reviews. This occurred
because the Department had not enforced the requirement for schools to develop written
procedures to ensure accurate accounting for meals served. In addition, schools had been
instructed by Departmental officials not to charge teachers, volunteer parents, and ineligible
students for meals. Finally, the Department did not have written instructions for the
performance of oversight reviews. As a result, from August 1985 to October 1987, the
Department claimed $529,379 in excess reimbursements, did not collect $208,924 for meals
served, and did not detect these discrepancies during its oversight reviews. Because of these
deficiencies, we made eight recommendations in the prior report to the Department (see
Appendix 3).

                              RESULTS OF AUDIT

We found that the Department of Education had implemented seven of the eight
recommendations made in our 1988 audit report and had partially implemented the
remaining recommendation. (These prior recommendations are summarized in Appendix 3.)
However, our followup review disclosed that: (1) seven schools and the Head Start Program
office had not retained approved student applications for free and reduced-price meals and
(2) the Department had not prepared analyses to determine a school’s eligibility to receive
additional reimbursement (severe need analyses) and to identify those schools that were
eligible for higher reimbursement rates. These conditions occurred because the Department:
(1) had not developed written procedures that require schools to notify Food Services when


                                              2
personnel performing meal program duties were changed to ensure that new employees were
trained and (2) had not developed monitoring control procedures to ensure that program
records were retained for 3 years and that severe need analyses were prepared for
determining school eligibility for assistance. As a result, the Department was unable to
support incurred costs totaling $351,231. Based on the deficiencies identified during our
followup audit, we made five new recommendations.

Program Records

The Code of Federal Regulations (7 CFR 3015.2 1 ) requires the Department to maintain all
program records “for 3 years from the starting date specified in [Section] 3015 .22.” Section
3015.22 states, “The 3-year retention period for the records of each funding period starts on
the day the recipient submits to USDA [U.S. Department of Agriculture] its annual or final
expenditure report for that period. ” Further, Title 7 requires the Department to review and
monitor its food services operations. Specifically, Section 210. 18(c)(1) requires the
Department to conduct, on a cyclical basis, comprehensive administrative reviews at the
schools to determine whether the schools are complying with program requirements. Finally,
Section 210.8(a)(l ) requires the Department to perform annually at least one on-site
monitoring review of each school to determine whether the schools are complying with
program requirements for processing applications, collecting cash, and counting meals
served. Schools are required to maintain student applications, meal preparation reports,
reimbursement claims, and food inventory reports. The Department had implemented an on-
site monitoring review of all schools; however, its review guide did not include a
determination that the schools maintain student applications for the required 3 years.

Based on our visits to 24 of the 35 public schools and the Head Start Program office, we
found that meal preparation reports, reimbursement claims, and food inventory reports were
tested and found to be satisfactorily maintained. However, we also found that: (1 ) two
schools had not retained school year 1994-1995 applications for those students who had
transferred to other schools; (2) one school could not locate school year 1994-1995
applications for students who had received reduced-price meals and had not retained any
school year 1992-1993 applications; and (3) four schools and the Head Start Program office
had not retained any applications for school year 1992-1993. As a result, the seven schools
and the Head Start Program office were unable to support claims for reimbursement for free
and reduced-price meals totaling $334,882.

The Acting Administrator of the Food Services Section said that the Department had
conducted training workshops which included the requirement for retaining program records
for 3 years. However, the Acting Administrator said that records had not been retained
because new personnel assigned to food services operations at the schools had not received
the required training. Therefore, we believe that the Department should develop written
procedures to require schools to notify the Food Services Section when school personnel
responsible for performing activities for the meal programs are changed so that the new
employees are adequately trained. In addition, we believe that the Department’s Food
Services Section monitoring guide should be amended to include a requirement that record
retention procedures should be reviewed at the schools. Further, the Department should


                                              3
report the $334,882 of unsupported claims to Agriculture’s Food and Consumer Service for
a determination of eligibility.

Severe Need Analyses

Severe need assistance is a provision within the School Breakfast Program Regulations that
allows the Department to receive a higher reimbursement rate for breakfast meals served at
quali$ing schools. Title 7, Chapter II, Section 220.9(e), of the Code of Federal Regulations
states that schools are eligible to receive severe need assistance when “40 percent or more
of the lunches served to students at the school in the second preceding school year were
served free or at a reduced price.”

For school year 1994-1995, we found that the Department had not prepared severe need
analyses that were based on data from the required second preceding school year (that is,
school year 1992- 1993). Instead, the Department continued to claim severe need based on
analyses from school year 1990-1991. At our request, the Department prepared a free and
reduced-price meal analysis for the School Breakfast Program based on school year
1992-1993 data. This analysis showed that 6 of the 18 schools that received severe need
assistance for school year 1994-1995 were not eligible for this assistance. In addition, the
analysis showed that one school was eligible but did not receive severe need assistance in
school year 1994-1995. As a result, the Department received net excess reimbursements of
$16,349 for school year 1994-1995 under the School Breakfast Program.

According to the Acting Administrator, the responsibility for preparing the claims for
Federal reimbursement (including claims for severe need assistance) was transferred in April
1993 from the Food Services Section to the Department’s Business Office. The Acting
Administrator said that the transfer of responsibility and the absence of procedures resulted
in the severe need analyses not being prepared. Therefore, we believe that the Department
should develop and implement procedures to ensure that the analyses are prepared to
determine school eligibility under the Severe Need Program. In addition, the Department
should report the $16,349 of excess reimbursements received to Agriculture’s Food and
Consumer Service.

Recommendations

We recommend that the Chairperson, Territorial Board of Education, require the Director,
Department of Education, to:

     1. Notify the Department of Agriculture’s Food and Consumer Service of the
$334,882 of unsupported reimbursements received under the National School Lunch and
School Breakfast programs for a determination of the allowability of those
reimbursements.

      2. Develop and implement written procedures to require schools to notify the Food
Services Section when school personnel responsible for performing meal program duties
are changed to ensure that new employees are adequately trained.


                                              4
      3. Amend the Food Services Section monitoring guide to require the reviewers to
determine whether the schools are maintaining program records, including student
applications, for 3 years.

      4. Develop and implement written procedures to ensure that severe need analyses
are prepared to determine school eligibility under the Severe Need Program.

     5. Noti& Agriculture’s Food and Consumer Service of the $16,349 of excess severe
need reimbursements received under the School Breakfast Program.

Department of Education Response and Office of Inspector General
Reply

In the January 21, 1997, response (Appendix 4) to the draft report from the Director of
the Department of Education, the Department concurred with all of our recommendations.
Based on the response, we consider Recommendations 1 and 5 resolved and implemented,
and additional information is needed for us to consider Recommendations 2 and 4 resolved
(see Appendix 5). However, even though the Department stated concurrence with
Recommendation 3, we consider it unresolved. Specifically, the Department stated that
the Food Services Section’s examiner performs monitoring reviews of food services
operations at the schools and that the Section’s standard operating procedures include a
requirement for program records to be maintained for 3 years. Although we concur with
the statement in the response that the Food Services Section’s standard operating
procedures include a requirement for schools to maintain program records for 3 years, the
Section’s monitoring guide (also referred to as the monitoring checklist) used by the
examiner does not include a requirement for the examiner to verify that schools are
maintaining program records for the required 3-year period. As discussed in the report,
we found that 7 of the 24 schools reviewed and the Head Start Program Office did not
properly maintain program records. Therefore, the Department is requested to reconsider
the recommendation (see Appendix 5).

The Inspector General Act, U.S. Public Law 95-452, Section 5(a)(3), as amended,
requires semiannual reporting to the U.S. Congress on all audit reports issued, the
monetary impact of audit findings (Appendix 1), actions taken to implement audit
recommendations, and identification of each significant recommendation on which
corrective actions has not been taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by May 8, 1997, to our North Pacific Regional Office, 238 Archbishop F.C.
Flores St., Suite 807, Pacific News Building, Agana, Guam, 96910. The response should
provide the information requested in Appendix 5.
We appreciate the assistance of Department of Education personnel in the conduct of our
audit.




cc: Director, Department of Education,
     Government of Guam




                                           6
                                               APPENDIX 1


              CLASSIFICATION OF MONETARY AMOUNTS




*Amounts represent Federal funds.
                                                                                             APPENDIX 2


                     DEPARTMENT OF EDUCATION,
                       GOVERNMENT OF GUAM,
              SCHEDULE OF FEDERAL REIMBURSEMENTS AND
                         QUESTIONED COSTS



                                                                              Questioned Costs
                                     Federal              Amount            Unallowed     Unsupported
School Year/Prom-am                Reimbursement          Tested              costs            costs

1992-1993:

National School Lunch              $1,994,028           $1,035,858                               $154,952
School Breakfast                      668,328              340,734                                 53,873
Head Start*                           117,981              117,981                                102,648

1993-1994:

National School Lunch                2,401,987            1,209,548
School Breakfast                       832,882              381,774
Head Start*                            125,665              125,665

1994-1995:

National School Lunch                2,484,248
School Breakfast                       802,716
Head Start*                            124,543

  Totals




*Amounts represent Federal reimbursements for meals served to Head Start Program students participating in the
National School Lunch and School Breakfast Programs.
                                                                                      APPENDIX 3
                                                                                        Page 1 of 2


 SUMMARY OF RECOMMENDATIONS AND CORRECTIVE ACTIONS
                  FOR AUDIT REPORT
             “FOOD SERVICES OPERATIONS,
    DEPARTMENT OF EDUCATION, GOVERNMENT OF GUAM”
                      (NO. 88-92)

             Recommendations                                        Corrective Actions


A l . Inform the Food and Nutrition Service            Implemented. The Department informed the
of the $529,379 in excess reimbursements               Food and Nutrition Service of the excess
received under the National School Lunch,              reimbursements, and, based on a April 7,
School Breakfast, and Severe Need Programs             1989, letter from the Nutrition Service to the
and arrange for repayment.                             Department, the excess reimbursements were
                                                       recovered by the Nutrition Service.
A.2. Compute the excess reimbursements                 Implemented. The Department reported the
received from October 1987 to the present              excess reimbursements to the Food and
under the National School Lunch and Breakfast          Nutrition Service, and, based on a
Programs and report the amount to the Food             September 11, 1991, letter from the Nutrition
and Nutrition Service.                                 Service to the Department, the excess
                                                       reimbursements were recovered by the
                                                       Nutrition Service.
A.3. Discontinue the practice of serving free          Partially implemented. Based on our review
and reduced-price meals to students who do not         of applications at 14 of 35 public schools, we
have approved applications on file for the             found that 2 schools did not retain approved
current school year.                                   current year applications for students who
                                                       transfen-ed and that 1 school could not locate
                                                       its current year applications.
A.4.    Obtain written procedures,           for       Implemented.     The      Department     had
Departmental review and approval, from every           developed a comprehensive standard
school for preparing accurate Cafeteria Monthly        operating procedures manual, which
Collection Reports, as required by the Free and        provided instructions for collecting cash,
Reduced-Price Meal Policy Administrative               approving applications, issuing meal tickets,
Guidance. These procedures should emphasize            and preparing meal reports. The manual
the requirement for maintaining appropriate            emphasized the requirement for schools to
records for the 3 years prior to the current           retain student applications for at least 3
school year.                                           years.



                                                   9
                                                                                      APPENDIX 3
                                                                                        Page 2 of 2



              Recommendations                                       Corrective Actions


A.5.    Correct the Severe Need Program claim          Implemented. The Department reported the
records to reflect only those schools that are         excess reimbursements to the Food and
eligible, compute the amount of excess                 Nutrition Service, and, based on a September
reimbursements claimed since October 1987,             11, 1991, letter from the Nutrition Service to
and report the amount to the Food and Nutrition        the Department, the excess reimbursements
Service.                                               were recovered by the Nutrition Service.
A.6.     Discontinue the practice of providing         Implemented. Based on our review of records
free meals to teachers, volunteer parents, and         at the Food Services Section for meals claimed
ineligible students enrolled in summer school          during summer school and under the Head Start
and the Head Start Program,                            Program, the Department had stopped providing
                                                       free meals served to ineligible persons.
A.7. Compute the amount of excess                      Implemented. The Department reported the
reimbursements in the Head Start Program for           excess reimbursements to the Food and
the current and prior 2 school years and report        Nutrition Service, and, based on a September
this amount to the Food and Nutrition Service.         11, 1991, letter from the Nutrition Service to
                                                       the Department, the excess reimbursements
                                                       were recovered by the Nutrition Service.
A.8. Develop specific written procedures for           Implemented. The procedures, as stated in the
conducting Assessment, Improvement, and                Department’s response, for performing
Monitoring System reviews to ensure                    Assessment, Improvement, and Monitoring
compliance with Title 7, Section 210.18, of the        System reviews generally appeared to be
Code of Federal Regulations.                           sufficient to ensure compliance with the
                                                       requirements of Title 7.




                                                  10
                                                                                                                    APPENDIX 4
                                                                                                                    Page 1 of 2


                          DEPARTMENT OF EDUCATION
                                                         P.O. Box DE
                                                      Agana, Guam 96932
                                                      Tel: (671 ) 475-0457
                                                      Fax: (671) 472-5003



ROLAND L.G. TAIMANGLO                                                                                      DR. ALINE YAMASHITA
 Director of Education                                                                                            Deputy Director
                                                             January 21, 1997


     Mr. Peter J. Scharwark
     Senior Auditor
     U.S. Department of the Interior
     Office of Inspector General
     North Pacific Region
     2 3 8 A r c h b i s h o p F.C. Flores Street
     Suite 807, PDN Bldg.
     Agana, Guam 96932

      Dear Ms. Scharwark,

     This is in response to the DRAFT AUDIT REPORT NO. N- IN-GUA-011-96 on
     Food Services Operations Recommendations.

      RECOMMENDATIONS:

      1.   Notify the Department of Agriculture’s Food and Consumer Services of
           the $ 334,822 of the unsupported reimbursements received under the
           National   School   Lunch   and    School   Breakfast  Programs for a
           determination of the allowability of those reimbursements.

      RESPONSE: CONCURRENCE

     2.    D e v e l o p a n d i m p l e m e n t w r i t t e n p r o c e d u r e s t o r e q u i r e t h e school to
           notify the Food Services Section when school personnel responsible for
           performing mea I p rog ram d u t i e s a r e c h a n g e d t o e n s u r e t h a t n e w
           employees are adequately trained.

      RESPONSE: CONCURRENCE

      3.   Amend the Food Service Section monitoring guide to require the
           reviewers to determine whether the schools are maintaining program
                                                                                     -
           records, including student applications f o r t h r e e ( 3 ) y e a r s .

      RESPONSE:

           T h e F o o d S e r v i c e S e c t i o n , F e d e r a l Examiner conducts coordinated
           review effort and monitor all areas of food service operations at
           schools which include the reporting and recordkeeping.                                                 The Food
           S e r v i c e S e c t i o n d e v e l o p e d t h e- A d m i n i s t r a t i v e G u i d a n c e M a n u a l , F o o d
           Service Standard Operating Procedures that prescribed the procedures
           and guidelines in maintaining the documents and also the Government
           o f G u a m R e c o r d lManagement                    handbook and this also prescribed
           procedures and guidelines in maintaining of records.



                                  COMMONWEALTH NOW!
                                                                11
                                                                      APPENDIX 4
                                                                      Page 2 of 2




Page two
Letter to Senior Auditor,
01/21/97




4.    Develop and implement written procedures to ensure that severe need
      analysis are prepared to determine school eligibility under Severe Need
      Program.

RESPONSE:    CONCURRENCE

5.    Notify Agriculture’s Food and Consumer Service of the $ 16,349 of
      excess   severe  need   reimbursements received under  the School
      Breakfast Program.

RESPONSE:    CONCURRENCE

1 thank you for your assistance and I want to assure you that corrective
action will be made in all recommendations.

If you have any further question(s), please do not hesitate to contact Ms.
Herbie A. Perez, Administrator, Financial Affairs at 475-0418.

                                     Sincerely,


                                     p?ms<q
                                     ROLAND L.C. TAI ANGLO
                                     Director of Education

cc:   Administrator, Financial Affairs




                                         12
                                                                             APPENDIX 5

       STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                     Action Required

          1              Implemented.       No further action is required.


          2              Management         Provide target dates and titles of the
                         concurs;           officials responsible for developing and
                         additional         implementing written procedures to
                         information        ensure that new employees are adequately
                         needed.            trained. When completed, a copy of the
                                            written procedures should be provided to
                                            the Office of Inspector General.

                         Unresolved.        Reconsider the recommendation, and
                                            provide a plan that includes target dates
                                            and titles of officials responsible for
                                            amending the Food Services Section
                                            monitoring guide to require reviewers to
                                            determine     whether     schools     are
                                            maintaining program records for 3 years.

                         Management         Provide target dates and titles of the
                         concurs;           officials responsible for developing and
                         additional         implementing written procedures to
                         information        ensure that severe need analyses are
                         needed.            prepared. When completed, a copy of the
                                            written procedures should be provided to
                                            the Office of Inspector General.

                         Implemented.       No further action is required.




                                       13
Sending written documents to:                                Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       1-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
HOTLINE
